                 DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                 OFFICE OF AUDIT SERVICES

                                233 NORTH MICHIGAN AVENUE
                                 REGION V
                                                                                            OFFICE OF
                                  CHICAGO, ILLINOIS 60601
                                                                                       INSPECTOR GENERAL


                                       March 9, 2009




Report Number: A·05-08-00099

Gary Obloy
Executive Director

Community Action Commission of Belmont County, Inc.

153 12 West Main Street

St. Clairsville, Ohio 43950


Dear Mr. Obloy:


Enclosed is the U.S. Department of Health and Human Services (HHS), Office of

Inspector General (OIG), final report entitled "Audit of Head Start Matching Costs for

the Period March 1,2006, Through February 29, 2008." We will forward a copy of this

report to the HHS action official noted on the following page.


Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, OIG reports generally are

made available to the public to the extent that information in the report is not subject to

exemptions in the Act. Accordingly, this report will be posted on the Internet at

http://oig.hhs.gov.


If you have any questions or comments about this report, please direct them to the HHS

action official. Please refer to report number A-05·08-00099 in all correspondence.


                                               Sincerely,

                                             ~.
                                               Marc~n
                                               Regional Inspector General
                                                 for Audit Services


Enclosure
Page 2 - Mr. Gary Obloy


Direct Reply to HHS Action Official:

Kent Wilcox
Regional Administrator
Administration for Children and Families
U.S. Department of Health and Human Services
Region V
233 North Michigan Avenue, Suite 400
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





    AUDIT OF HEAD START

  MATCHING COSTS FOR THE

   PERIOD MARCH 1, 2006,

 THROUGH FEBRUARY 29, 2008


     COMMUNITY ACTION

   COMMISSION OF BELMONT

       COUNTY, INC.





                      Daniel R. Levinson
                       Inspector General

                         March 2009
                        A-05-08-00099
                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (IllIS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for IllIS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance oflllIS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of IllIS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout IllIS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide IllIS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEl reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to IllIS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on IllIS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving IllIS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND 


Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.
The Head Start program provides grants to local public and private non-profit and for-profit
agencies (local agencies) to provide comprehensive child development services to economically
disadvantaged children and families, with a special focus on helping preschoolers develop the
early reading and math skills needed to be successful in school. Head Start programs engage
parents in their children's learning and emphasize parental involvement in the administration of
local Head Start programs.
Federal regulations require local agencies to provide a 20-percent matching share of the total
costs of their program. The matching share is from non-Federal sources which may be in the
form of cash or in-kind contributions. Federal regulation 45 CFR part 1310.12(a), effective
June 24, 2007, eliminated certain transportation costs that were previously allowable for
classification as in-kind contributions. However, ACF Program Instruction ACF-PI-HS-07-04,
dated June 27, 2007, instructed ACF regional offices to consider giving grantees that are
significantly impacted by this change a one-year (partial) waiver of Head Start’s non-Federal
share requirement.

The Community Action Commission of Belmont County, Inc. (grantee) reported Head Start
costs totaling $1,852,498 for its fiscal year (FY) 2006 (March 1, 2006, through
February 28, 2007) and $1,545,622 for FY 2007 (March 1, 2007, through February 29, 2008).
Of these costs, the grantee reported in-kind contributions totaling $372,546 for FY 2006 and
$188,223 for FY 2007 as part of its share of the required 20-percent match. The grantee
requested and the ACF Region V office approved a partial waiver of the 20-percent match for
FY 2007 on July 9, 2008.

OBJECTIVE

Our objective was to determine whether the grantee reported costs that met the Federal program
requirements for the 20-percent matching share and allowable in-kind contributions claimed for
FYs 2006 and 2007.

SUMMARY OF RESULTS

The grantee reported costs that met Federal program requirements for the matching share and
allowable in-kind contributions claimed for FYs 2006 and 2007. The grantee reported allowable
in-kind contributions for volunteer services, facility space, and other miscellaneous items that
met the 20-percent matching share requirement for FY 2006. For FY 2007, the grantee provided


                                                i
12 percent in matching share costs but complied with the matching share requirements because
the ACF Region V office approved the Federal waiver request related to the 20-percent matching
share and the elimination of certain transportation costs as in-kind contributions.




                                              ii
                                                  TABLE OF CONTENTS 

                                                                                                                       Page

INTRODUCTION...........................................................................................................1 


          BACKGROUND ..................................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ................................................1 

               Objective ...................................................................................................1 

               Scope.........................................................................................................2 

               Methodology .............................................................................................2 


RESULTS OF AUDIT....................................................................................................2 





                                                                   iii
                                      INTRODUCTION 


BACKGROUND 


Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.
The Head Start program provides grants to local public and private non-profit and for-profit
agencies (local agencies) to provide comprehensive child development services to economically
disadvantaged children and families, with a special focus on helping preschoolers develop the
early reading and math skills needed to be successful in school. Head Start programs engage
parents in their children's learning and emphasize parental involvement in the administration of
local Head Start programs.
Federal regulations require local agencies to provide a 20-percent matching share of the total
costs of their program. The matching share is from non-Federal sources which may be in the
form of cash or in-kind contributions. Federal regulation 45 CFR part 1310.12(a), effective
June 24, 2007, eliminated certain transportation costs that were previously allowable for
classification as in-kind contributions. However, ACF Program Instruction ACF-PI-HS-07-04,
dated June 27, 2007, instructed ACF regional offices to consider giving grantees that are
significantly impacted by this change a one-year (partial) waiver of Head Start’s non-Federal
share requirement.

The Community Action Commission of Belmont County, Inc. (grantee) reported Head Start
costs totaling $1,852,498 for its fiscal year (FY) 2006 (March 1, 2006, through
February 28, 2007) and $1,545,622 for FY 2007 (March 1, 2007, through February 29, 2008).
Of these costs, the grantee reported in-kind contributions totaling $372,546 for FY 2006 and
$188,223 for FY 2007 as part of its share of the required 20-percent match. The grantee
requested and the ACF Region V office approved a partial waiver of the 20-percent match for
FY 2007 on July 9, 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the grantee reported costs that met Federal program
requirements for the 20-percent matching share and allowable in-kind contributions claimed for
FYs 2006 and 2007.




                                                1

Scope

Our review included costs reported for the period March 1, 2006, through February 29, 2008.
We did not review the overall internal control structure of the grantee. We limited our internal
control review to obtaining an understanding of the procedures used by the grantee to document
compliance with Federal requirements for the 20-percent matching share of costs and in-kind
matching contributions.

We reviewed three months of sampled in-kind contributions totaling $25,002 from FY 2006 and
$27,570 from FY 2007. In each of the three months, we reviewed sampled volunteer services,
facility space, and other miscellaneous items claimed as in-kind contributions in Belmont
County.

We conducted fieldwork at the grantee’s office in St. Clairsville, Ohio in October 2008.

Methodology

To accomplish the objective, we:

   •	 reviewed applicable laws, regulations, and guidelines;

   •	 reviewed the most recently completed triennial review of the grantee;

   •	 reviewed correspondence with the ACF Region V Office related to non-Federal matching
      costs;

   •	 gained an understanding of the grantee’s accounting system;

   •	 reviewed sampled invoices, journal entries, and trial balances;

   •	 reviewed costs claimed and supporting documentation for sampled cost categories;

   •	 reconciled the final financial status report to the grantee’s accounting records; and

   •	 reviewed sampled costs for allocability, reasonableness, and allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

The grantee reported costs that met Federal program requirements for the 20-percent matching
share and allowable in-kind contributions claimed for FYs 2006 and 2007. The grantee reported


                                                2

allowable in-kind contributions for volunteer services, facility space, and other miscellaneous
items that met the 20-percent matching share requirement for FY 2006. For FY 2007, the
grantee provided 12 percent in matching share costs but complied with the matching share
requirements because the ACF Region V office approved the Federal waiver request related to
the 20-percent matching share and the elimination of certain transportation costs as in-kind
contributions.




                                                3

